la
United States Court of Appeals
For the First Circuit
No. 17-2135
UNITED STATES,
Plaintiff, Appellee,
v.
JOHN DERAFFELE,
Defendant, Appellant.
Before
Howard, Chief Judge.
Torruella, Lynch and Thompson,
Circuit Judges.
ORDER OF COURT
Entered: March 7, 2019
Pursuant to this court’s Internal Operating
Procedure X.C., we treat a petition for rehearing
en banc also as petition for rehearing before the
original panel. The petition for rehearing having
been denied by the panel of judges who decided the
case and the petition for rehearing en banc having
been submitted to the active judges of this court and
a majority of the judges not having voted that the

2a
case be heard en banc, it is ordered that the petition
for rehearing and petition for rehearing en banc be
denied.
By the Court:
Maria R. Hamilton, Clerk
cc:
Cynthia A. Young
Jennifer A. Serafyn
Gregory Joseph Dorchak
John Deraffele

3a
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
UNITED STATES OF AMERICA,
Plaintiff,
v.

Civil Action No.
16-10991-MGM

JOHN DERAFFELE
Defendant.
JUDGMENT IN A CIVIL CASE
MASTROIANNI, U.S.D.J.
x

Jury Verdict. This action came before the court
for a trial by jury. The issues have been tried
and the jury has rendered its verdict.
Decision by the Court. This action came to
trial or hearing before the Court. The issues
have been tried or heard and a decision has
been rendered.

IT IS ORDERED AND ADJUDGED
In accordance with the Jury Verdict returned
October 27, 2017, judgment enters for plaintiff.
ROBERT FARRELL,
CLERK OF COURT
By
/s/ Timothy J. Bartlett
Courtroom Deputy Clerk
Dated:

October 30. 2017

4a
United States Court of Appeals
For the First Circuit
No. 17-2135
UNITED STATES,
Plaintiff, Appellee,
v.
JOHN DERAFFELE,
Defendant, Appellant.
Before
Torruella, Lynch and Thompson
Circuit Judges.
JTUDGMENT
Entered: January 18, 2019
Pro se defendant-appellant John DeRaffele
appeals from a jury verdict finding that he violated
the Fair Housing Act (“FHA”) by discriminating
based on familial status and by retaliating against
individuals exercising rights protected by the FHA.
See 42 U.S.C. § 3601, et seq. The government moves
for summary disposition.
Having
carefully
reviewed
the
parties’
submission, including each and every one of the
arguments sufficiently developed in appellant’s brief,
and relevant portions of the record, we conclude that
the appeal does not present a “substantial question”

i

>

5a
and that the government’s motion for summary
disposition should be granted. See 1st Cir. R. 27.0(c).
The judgment of the district court is affirmed,
substantially of the reasons set out by the district
court in its rulings addressing the issues developed
on appeal.
Affirmed. See 1st Cir. R. 27.0(c).
By the Court:
Maria R. Hamilton, Clerk
cc: Cynthia A. Young, Jennifer A. Serafyn, Gregory
Joseph Dorchak, John Deraffele

6a
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
UNITED STATES OF AMERICA,
Plaintiff,
v.

Civil Action No.
16-10991-MGM

JOHN DERAFFELE,
Defendant.
SPECIAL JURY VERDICT FORM
Housing Discrimination Against the
Hernandez Family:
1. Did Plaintiff, the United States of America,
prove by a preponderance of the evidence that
John DeRaffele did one or more of the
following?
a) Refused to rent apartment 2L at
27 Loring Street to Aileen and Esteban
Hernandez after they offered to rent the
apartment and, at the time of that offer,
they were ready, willing, and able to
pay John DeRaffele’s rental price.
Yes

No

X

b) Refused to negotiate with Aileen and
Esteban Hernandez regarding the rental
of apartment 2L at 27 Loring Street.
Yes

No

X

t

i

7a

c) Made unavailable or denied apartment
2L at 27 Loring Street to Aileen and
Esteban Hernandez.
Yes

X___ No

d) Made, or caused to be made, a notice or
statement to Aileen and Esteban
Hernandez that indicated a preference,
limitation,
or
discrimination
with
respect to the rental of apartment 2L at
27 Loring Street.
Yes

No

X

If you answered “No” to all parts of
Question 1, please move to question 5. If you
answered “Yes” to one or more parts of
Question 1, please answer Question 2.
2. Did Plaintiff, the United States of America,
prove by a preponderance of the evidence that
the familial status of Aileen and Esteban
Hernandez
was
a
substantial
factor
motivating the conduct of John DeRaffele on
which you based your answer to question 1?
Yes

X___ No

If you answered “No” to Question 2, please
move to question 5. If you answered “Yes” to
Question 2, please answer Question 3.
3. Did Plaintiff, the United States of America, •
prove by a preponderance of the evidence that
Aileen and Esteban Hernandez suffered

8a
actual damages, in the form of financial losses
and/or emotional distress, as a result of the
refusal to rent on which you based your
answers to questions 1 and 2?
Yes

X

No_____

If you answered “No” to Question 3, please
move to question 5. If you answered “Yes” to
Question 3, please answer Question 4.
4. What total amount of money do you find will
fairly and adequately compensate Aileen and
Esteban Hernandez for the financial losses
and/or emotional distress caused by the
refusal to rent on which you based your
answers to questions 1 and 2?
00
five hundred
100
(Write amount in words)

$

(Dollars)

500. (Write and amount in numbers)

Please continue to Question 5.
Discriminatory Pattern or Practice:
5. Did Plaintiff, the United States of America,
prove by a preponderance of the evidence that
John DeRaffele had a pattern or practice of
discriminating
against
tenants
and/or
prospective tenants based on familial status?

1

•

>

9a
Yes

X___ No

Please continue to Question 6.
Interference, Coercion, or Intimidation:
6. Plaintiff, the United States of America, prove
by a preponderance of the evidence that
Aileen and Esteban Hernandez’s filing of a
fair housing complaint against John DeRaffele
was a substantial factor motivating his
decision to name them as defendants in a
lawsuit he filed after they made their
complaint?
Yes

X

No_____

If you answered “No” to Question 6, proceed
to Question 10. If your answer is “Yes”
proceed to Question 7.
7. Did Plaintiff, the United States of America,
prove by a preponderance of the evidence that
John DeRaffele sought to coerce, intimidate,
or threaten Aileen and Esteban or to interfere
with their fair housing rights when he filed
the law suit described in question 6?
Yes

X___No

If you answered “No” to Question 7, proceed
to Question 10. If your answer is “Yes”
proceed to Question 8.

►

'

«

* t *

10a

8. Did Plaintiff, the United States of America,
prove by a preponderance of the evidence that
Aileen and Esteban Hernandez suffered
actual damages, in the form of financial losses
and/or emotional distress, as a result of the
conduct on which you based your answers to
questions 6 and 7?
Yes

X

No

If you answered “No” to Question 8, proceed
to Question 10. If your answer is “Yes”
proceed to Question 9.
9. What total amount of money do you find will
fairly and adequately compensate Aileen and
Esteban Hernandez for the financial losses
and/or emotional distress caused the conduct
on which you based your answers to questions
6 and 7?

______ eight thousand
(Amount in Words)

$

00
100

8,000. (Amount in Numbers)

Please continue to Question 10.

(Dollars)

*t ■

* ► >

>

11a

10. Answer this question only if you
answered “Yes” to Questions 1 and 2
and/or Question 5 and/or Questions 6
and 7. If you did not answer “Yes” to any
part of Questions 1 and Question 2
AND/OR Question 5 AND/OR Questions
6 and 7, you have completed your
deliberations and your foreperson should
sign and date the verdict form.
What amount of money, if any, up to a
maximum of $75,000, should John DeRaffele
pay to the United States as a penalty for
violating the Fair Housing Act?
00

Thirty five thousand 100 (Dollars)
(Write amount in words)
35.000. -

$

(Write and amount in numbers)
This ends your deliberations and your
foreperson should sign and date the verdict
form.
The undersigned foreperson of the jury hereby
certifies that the members of the jury agree to the
above findings.

10/27/17
DATE

J
FOREPERSON'S SIGNATURE

HJj/-

V.

J

v «

